WAIVER
SUPREME COURT OF THE UNITED STATES
No. 20-8437
JAN G.

SCOTT SEMPLE, ET AL.
V.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
C)

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the. following respondent(s):

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your api3earance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Baember. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, First;Street
'Washington, D.C. 20543).

Signature:
Date:

6/29/21

(Type or print) Name Jacob McChesney
MS.

0 Mrs.

Firm

Office Of the Attorney General

Address

110 Sherman St..

City & State

Hartford, CT

Phone

860-808-5450

0 Miss

Zip 06105
Email jacob.mcchesney@t.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is require 3.
Jan Gawlik, #13888; Cheshire CI, 900 Highland Ave., Cheshire, CT 06410

cc:

RECEIVEC
JUL 12 2021

0 =TICE OF THE CLEF
S PREME COURT, U.

